                                           &
                                 i;ixfj"ijhAL
                                 COMMUNITY
                                 SERVICE-


Date:          September 30,2004

To:            David Eisner
               Chief Executive Officer

From:          J. Russell George 3-
               Inspector General

Subject:       Revised Refill Policy (OIG Reference 04-26)

        In response to a congressional request, the Office of Inspector General Audit
section looked into the Corporation's revised refill policy. The auditors prepared a list of
the safeguards in the policy and determined how these safeguards would be implemented
and monitored.

       As you know, the safeguards will be built into the Corporation's Web Based
Reporting System (WBRS). Corporation staff informed the auditors of how WBRS will
be reprogrammed to comply with the refill policy. The auditors received a demonstration
of how WBRS is designed to function after being reprogrammed. The demonstration
showed that the Corporation should be able to track, in real time, the number of slots
approved and filled by each grantee, the number of members who leave the program, and
the number of slots available for refill.       The demonstration showed that the
reprogrammed WBRS should not allow a slot to be refilled more than once.

         Based on the demonstration, we are satisfied that the Corporation should have
real-time data available to monitor enrollment and prevent refilling from endangering the
fiscal integrity of the National Service Trust. The WBRS will be designed to track actual
and potential enrollment for a program year, and calculate the percentage of approved
slots that have been filled. Once the percentage of slots filled reaches the 80 percent
mark, and every increment of 5 percent thereafter, WBRS will send e-mail warnings to
Corporation employees. The Chief Financial Officer has the administrative right to halt
refilling at anytime. Thus, if WBRS functions as designed, Corporation employees will
have ample warning to halt refilling and protect the Corporation's fiscal integrity.

        Due to congressional interest in a prompt response, we did not conduct a formal
audit of the safeguards in WBRS. However, these safeguards will be reviewed as part of
a follow-up examination of the Corporation's AmeriCorps enrollment procedures.


cc: Andrew Kleine, Acting Chief Financial Officer



                   1 201 N c u York Avenue, N\V. S~utc.830 + Washington DC 20525                     s
                      702-606-5000 + H o t l ~ n c800-452-8210          *   w n n cncsy, go1   USA-
                                                                                               Freedom Corps
                       Senlor Corps   * A m c r ~ C o r p s*   Learn and Serve A m e r ~ c a   I hi P r c d r n t   Call to S e n t ~ c
